App. 1
APPENDIX A
NOT RECOMMENDED FOR
FULL-TEXT PUBLICATION
No. 18-2186
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL J. SANDS,
Plaintiff-Appellant,
v.
MEGAN J. BRENNAN,
Postmaster General,

)
\ ON APPEAL FROM
)
)
)
)
)

THE UNITED STATES
DISTRICT COURT
FOR THE EASTERN
DISTRICT OF MICHIGAN

Defendant-Appellee. )
ORDER
(Filed Mar. 13, 2019)
Before: MOORE, GILMAN, and DONALD, Circuit
Judges.
Michael J. Sands, a Michigan resident, appeals pro
se the summary judgment for defendant in an employ­
ment discrimination action. This case has been re­
ferred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed.
See Fed. R. App. P. 34(a).
Sands was employed by the Post Office as a me­
chanic from 2001 to 2011. He states that he was suffer­
ing from post-traumatic stress disorder (PTSD) and
experienced breakdowns in 2004 and 2008. In 2009, he

App. 2
reported that some of his co-workers had come to his
house in the middle of the night and sexually assaulted
him. Defendant required Sands to obtain a psycholog­
ical evaluation of his fitness for work. The doctor re­
ported that Sands was unfit for work, diagnosed Sands
as suffering from psychosis, and recommended that he
not be allowed to return unless he documented that
he was receiving treatment including anti-psychotic
medication. Sands filed a complaint with the Equal
Employment Opportunity Commission (EEOC), which
was initially dismissed as untimely and, on remand,
denied on the merits. Sands admits that he did not
timely file a lawsuit after this decision, blaming bad
advice and his inability to hire a lawyer.
In 2013, Sands requested to return to work, stat­
ing that his doctor did not agree that he required
anti-psychotic medication and reporting that he was
working at a new job without any issues. Defendant
refused to reinstate him and, in 2015, officially termi­
nated his employment for having been on unpaid leave
for more than one year. After each of these events,
Sands filed an EEOC complaint that was denied. He
filed two complaints, which the district court consoli­
dated, arguing that he was discriminated against
based on a disability and retaliated against for filing
complaints with the EEOC.
The parties filed cross-motions for summary judg­
ment. A magistrate judge recommended that defend­
ant’s motion be granted and the motion filed by Sands
be denied. The district court overruled the objection to

App. 3
the report and granted judgment to the defendant.
This timely appeal followed.
The district court construed the consolidated com­
plaints in this case as arising under the Rehabilita­
tion Act of 1973, 29 U.S.C. § 701 et seq., the remedy for
federal employees alleging disability discrimination.
See Peltier v. United States, 388 F.3d 984, 989 (6th
Cir. 2004). Sands argues on appeal that his complaint
should have been construed as having been filed under
the Family and Medical Leave Act. However, he did not
allege that he had been denied any leave time to which
he was entitled under that statute. See Walker u. Trin­
ity Marine Prods., Inc., 721 F.3d 542, 544-45 (8th Cir.
2013); Wysong v. Dow Chem. Co., 503 F.3d 441, 449-50
(6th Cir. 2007).
Defendant argues that Sands waived his right to
appeal by failing to file specific objections to the mag­
istrate judge’s report, citing Cowherd v. Million, 380
F.3d 909, 912 (6th Cir. 2004). The district court did find
that Sands failed to specifically object to the magis­
trate judge’s findings and legal conclusions, instead
only restating the claims that he made in his com­
plaints. Even if the alleged waiver is overlooked, the
summary judgment for defendant must be affirmed on
the merits.
We review a summary judgment de novo, viewing
the evidence in the light most favorable to the losing
party, and will affirm where there is no genuine dis­
pute of material fact. See Loyd u. Saint Joseph Mercy
Oakland, 766 F.3d 580, 588 (6th Cir. 2014). As to the

App. 4
events occurring before the original EEOC complaint,
Sands admits that he did not file a complaint within
ninety days of the EEOC’s decision. See Seay v. TVA,
339 F.3d 454, 469 (6th Cir. 2003). Moreover, it is not
illegal for an employer to request a mental evaluation
of an employee after the employee displays troubl­
ing behavior. See Sullivan v. River Valley Sch. Dist.,
197 F.3d 804, 810-13 (6th Cir. 1999). Therefore, defend­
ant was entitled to summary judgment on this claim.
Sands also alleged that the refusal to return him
to work in 2013 and his official termination in 2015
were based on his disability and retaliation for his
EEOC complaints. Defendant was entitled to summary
judgment on these claims because Sands points to no
evidence that there was a causal relationship between
his disability, which he identifies as PTSD, and these
adverse actions. He also did not produce evidence that
there was a causal connection between the adverse ac­
tions and his EEOC filings. See Gribcheck v. Runyon,
245 F.3d 547, 550 (6th Cir. 2001). Even if he had estab­
lished a prima facie case under either of these theories,
defendant submitted nondiscriminatory reasons for
the adverse actions, in that Sands did not meet the re­
quirements to return to work recommended by the doc­
tor, and he had been on unpaid leave for more than one
year. Sands was required to show that these reasons
were a pretext for discrimination because they had no
basis in fact, did not actually motivate the actions,
or were insufficient to motivate the actions. See Chen
v. Dow Chem. Co., 580 F.3d 394, 400 (6th Cir. 2009).
Sands failed to point to any evidence that creates a

App. 5
genuine dispute of material fact on these issues. He ar­
gues that defendant was incorrect to require him to
document treatment for psychosis, but that does not
demonstrate that defendant’s reasons were a pretext
for discrimination. See id. at 401; Majewski v. Auto­
matic Data Processing, Inc., 274 F.3d 1106, 1117 (6th
Cir. 2001).
For all of the above reasons, we AFFIRM the sum­
mary judgment for defendant.

ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 6
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MICHAEL J. SANDS,
Plaintiff,
v.

Case No. 16-cv-12860

MEGAN J. BRENNAN,
POSTMASTER GENERAL
OF THE UNITED STATES

HON.
MARK A. GOLDSMITH

Defendant.
OPINION AND ORDER (1) OVERRULING
PLAINTIFF’S OBJECTIONS (DKT. 57).
(21 ACCEPTING THE REPORT AND
RECOMMENDATION OF THE MAGISTRATE
JUDGE DATED JULY 26. 2018 (DKT. 55).
(3) GRANTING DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT (DKT. 45).
AND (4) DENYING PLAINTIFF’S MOTION
FOR SUMMARY JUDGMENT (DKT. 48)
(Filed Sep. 13, 2018)
Plaintiff Michael J. Sands filed this civil rights ac­
tion under the Rehabilitation Act, 29 U.S.C. § 794, et
seq., against Defendant Megan J. Brennan, Postmaster
General, United States Postal Service (“USPS”). See
Compl. (Dkt. 1). The matter was referred to Magistrate
Judge R. Steven Whalen for all pretrial proceed­
ings. See Order of Referral (Dkt. 4). The parties filed

App. 7
cross-motions for summary judgment (Dkts. 45, 48).
On July 26,2018, the magistrate judge issued a Report
and Recommendation (“R&R”) (Dkt. 55). In the R&R,
the magistrate judge recommends granting Defend­
ant’s motion for summary judgment and denying Plain­
tiff’s motion for summary judgment (Dkt. 55). Plaintiff
filed timely objections (Dkt. 57), but Defendant did not.
For the reasons that follow, the Court adopts the mag­
istrate judge’s R&R and dismisses this case with prej­
udice.

I. BACKGROUND
The factual and procedural background has been
adequately set forth by the magistrate judge and need
not be repeated here in full. In brief summary, Sands
was a maintenance mechanic at the USPS’s Detroit Pri­
ority Mail Facility in Romulus, Michigan. He brought
three Equal Employment Opportunity (“EEO”) com­
plaints arising out of his allegations that the USPS
discriminated against him on the basis of his posttraumatic stress disorder (“PTSD”), and retaliated
against him for filing EEO complaints. The magistrate
judge found that Sands’ failed to exhaust his adminis­
trate remedies with respect to his first EEO complaint,
because it was filed four-and-a-half years after the 90day period to appeal the agency’s final decision. R&R
at 10-11, PageID.832-833 (citing 29 C.F.R. §§ 1614.407(a)
and (c)).
With respect to Sands’ second EEO complaint, the
magistrate judge found that there was no direct or

(

App. 8
circumstantial evidence to establish a prima facie case
of discrimination based on Sands’ PTSD. R&R at 1112, PagelD.834-846. Indeed, Sands admitted that he
did not “have any particular evidence that suggests or
proves that [his termination] was based on the PTSD.”
R&R at 13, PageID.835. The magistrate judge further
found that Sands had failed to offer any evidence that
the USPS had sought out other employees to replace
him or that any other similarly-situated employees
were treated more favorably than Sands. Id.
Similarly, the magistrate judge found that with re­
spect to Sands’ third EEO complaint, he did not pro­
vide evidence that he was removed from the USPS’s
employment rolls because of his PTSD. R&R at 14,
PageID.836. Plaintiff had been on leave without pay
since June 6, 2011, and was separated effective Janu­
ary 23, 2015. Id- Under the USPS’s regulations, “[a]t
the expiration of 1 year of continuous absence without
pay, an employee who has been absent because of
illness may be separated for disability.” Employee &
Labor Relations Manual, section 365.342(a). The mag­
istrate judge observed that Sands’ did not bring forth
any evidence that anyone else in his situation had been
treated any differently. R&R at 14, PageID.836. Addi­
tionally, the magistrate judge found that Sands could
not show that the USPS retaliated against him. Id. at
15, PageID.837. The magistrate judge reasoned that
even if Sands could establish a prima facie case, the
USPS had articulated a non-discriminatory reason for
his removal from the employment rolls (he was in non­
pay status for more than a year), and Sands did not

App. 9
provide any evidence that the reason proffered by the
USPS was pretext for discrimination. IcL
In response to the magistrate judge’s R&R, Sands
filed objections fashioned as an appeal from the mag­
istrate judge’s R&R. In the so-called appeal, Sands lists
seven objections to the R&R.
II.

STANDARD OF DECISION

The Court reviews de novo any portion of the R&R
to which a specific objection has been made. See 28
U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b): Alspaugh v. Mc­
Connell. 643 F.3d 162,166 (6th Cir. 2011) (“Only those
specific objections to the magistrate’s report made to
the district court will be preserved for appellate re­
view; making|ome objections but failing to raise oth­
ers will not preserve all the objections a party may
have.”). Any arguments made for the first time in ob­
jections to an R&R are deemed waived. Uduko v.
Cozzens. 975 F. Supp. 2d 750, 757 (E.D. Mich. 2013).
III. ANALYSIS
Despite listing seven objections to the magistrate
judge’s R&R, Sands does not identify any specific de­
fect in the magistrate judge’s R&R, and he does not set
forth any factual basis or legal authority to support a
conclusion that the magistrate judge erred. Instead,
Sands rehashes the arguments that he made in his mo­
tion for summary judgment. A party’s “objections must
be clear enough to enable the district court to discern

App. 10
those issues that are dispositive and contentious.” Mil­
ler v. Currie. 50 F.3d 373, 380 (6th Cir. 1995). “ ‘[Objec­
tions disputing] the correctness of the magistrate’s
recommendation but failing] to specify the findings
. . . believed [to be] in error’ are too general,” Spencer v.
Bouchard. 449 F.3d 721, 725 (6th Cir. 2006 (quoting
Miller. 50 F.3d at 380), and “the failure to file specific
objections to a magistrate’s report constitutes a waiver
of those objections,” Cowherd v. Million. 380 F3d 909,
912 (6th Cir. 2004).
Sands also filed numerous exhibits in support of
his objections, which he says speak for themselves.
Objs. at 12, PageID.853. He says that he “knows of no
other way to present the evidence and respectfully
ask[s] the Court to read and review, the Plaintiffs evi­
dence in support of his objections.” However, it is not
the job of the Court to make arguments on Sands’ be­
half when he fails to provide his own legal analysis.
See McPherson v. Kelsev. 125 F.3d 989, 995-996 (6th
Cir. 1997) (“ [Tissues adverted to in a perfunctory man­
ner, unaccompanied by some effort at developed argu­
mentation, are deemed waived. It is not sufficient for a
party to mention a possible argument in the most skel­
etal way, leaving the court to . . . put flesh on its
bones.”). The failure to object to certain conclusions in
the magistrate judge’s report releases the Court from
its duty to independently review those issues. See
Thomas v. Arn. 474 U.S. 140, 149 (1985). Accordingly,
Sands has waived any objections to the R&R. None­
theless, the Court has reviewed Sands’ submissions
and sees nothing on the face of those submissions

App. 11
supporting any claim of error with the magistrate
judge’s R&R, which the Court has also reviewed and
determines reached the correct result for the right rea- sons.
IV.

CONCLUSION

For the foregoing reasons, the Court OVER­
RULES Sands’ objections (Dkt. 57), accepts the recom­
mendation contained in the magistrate judge’s R&R
(Dkt. 55), DENIES Sands’ motion for summary judg­
ment, and GRANTS Defendants’ motion for summary
judgment. This case is DISMISSED WITH PREJU­
DICE.
SO ORDERED.
Dated: September 13,2018 s/ Mark A. Goldsmith_____
Detroit, Michigan MARK A. GOLDSMITH
United States District Judge
[Certificate Of Service Omitted]

App. 12
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MICHAEL J. SANDS,
Plaintiff,

No. 16-12860

v.

District Judge
Mark A. Goldsmith
MEGAN J. BRENNAN,
POSTMASTER GENERAL, Magistrate Judge
R. Steven Whalen
US. POSTAL SERVICE,
Defendant.
REPORT AND RECOMMENDATION
Before the Court is the Defendant’s Motion for
Summary Judgment [Doc. #45], filed by Defendant Me­
gan J. Brennan, Postmaster General, U.S. Postal Ser­
vice, and Plaintiff’s motion for Summary Judgment
[Doc. #48], which have been referred for a Report and
Recommendation pursuant to 28 U.S.C. § 636(b)(1)(B).
For the reasons discussed below, I recommend that De­
fendant’s motion [Doc. #45] be GRANTED and that
Plaintiff’s motion [Doc. #48] be DENIED.

I. FACTUAL AND
PROCEDURAL BACKGROUND
This is a civil rights action pursuant to the Reha­
bilitation Act 29 U.S.C. § 794 et seq. Plaintiff Michael J.
Sands was a maintenance mechanic at the USPS’s

App. 13
Detroit Priority Mail Facility in Romulus, Michigan.
Motion to Consolidate Cases [Doc. #19], Exhibit C — De­
nial of Appeal of 2013 EEO. Plaintiff brought three
Equal Employment Opportunity (EEO) complaints
arising out of his allegations. Plaintiff claims that the
Postal Service discriminated against him on the basis
of disability and past EEO activity when: (1) the
United States Postal Service (USPS) sent Plaintiff to
an independent medical examiner for a fitness-forduty examination and, based on the doctor’s finding
that he was not fit for duty, he was placed in leavewithout-pay status until he could show compliance
with psychiatric regimen; (2) USPS denied Plaintiff’s
request to return to work two years later when he
failed to provide the medical documentation of com­
pliance with the psychiatric regimen; and (3) USPS
separated Plaintiff from employment after more than
three years in leave-without-pay status. [Doc. #45], De­
fendant’s Brief, Pg ID 564., p. 7.
A. First EEO Complaint (2010)
On July 26, 2010, plaintiff filed his first EEO com­
plaint (Agency No. l-J-483-0041-10, EEOC Case No.
471-2-11-00090X). Defendant’s Motion for Summary
Judgment [Doc. #45], Exhibit B - 2010 EEO Com­
plaint. Plaintiff alleged that Manager of In-Plant Sup­
port, Timothy Robertson, and Manager of Finance,
Deborah Gruschow, discriminated against him because
of his disability, PTSD, when, from December 2008 to
March 2010, they precipitated his mental breakdown
through inadequate staffing and working conditions,

App. 14
failed to protect him from taunting by others, deac­
tivated his badge for security reasons, and went to his
home in the middle of the night and sexually assaulted
him. Motion to Consolidate Cases [Doc. #19], Exhibit A
- FAD in 2010 EEO, Pg ID 185, 194-196, pp. 1, 10-12.
The Redford Police Department completed an investi­
gation report on October 6, 2009, and the case status
was “suspended”. Id. at Pg ID 197, p. 13.
On January 12, 2011, Mr. Robertson signed a
typed unsworn statement that stated that Plaintiff
shouted at him from end of the hallway, “There is the
crook, he should be put in jail” and “wipe that stupid
smirk off your face, you should be in jail”. Id. at Pg ID
201, p. 17. Mr. Robertson stated that Plaintiff was “very
upset and seemed to be in a confused state.” Id.
On or about February 25, 2011, Plaintiff’s super­
visor requested that he undergo a fitness-for-duty ex­
amination due to plaintiff’s behavior in the workplace.
Id. at Pg ID 200, p. 16. On March 2, 2011, Plaintiff at­
tended the fitness-for-duty examination with Dr. Ken­
neth Kron, M.D., who concluded that he was not fit for
duty and would need to see a psychiatrist and receive
medical treatment on a regular basis. Id. at Exhibit F
- IME Report of Kenneth Kron, M.D. Dr. Kron stated
that Plaintiff’s symptoms were consistent with an ele­
ment of psychosis and that he was preoccupied with
psychotic thought process. Id. at Pg ID 266, p. 5. Dr.
Kron recommended that Plaintiff not return to work,
that he participate in regular psychiatric treatment
and consultation, and comply with neuroleptic and an­
tipsychotic medication. Id. at Pg ID 267, p. 6. On March

App. 15
7, 2011, Human Resources Manager Lee Ward sent
Plaintiff a memorandum based upon his fitness for
duty examination, stating that it has been determined
that you are “not Fit For Duty at this time.” Id. Exhibit
A at Pg ID 200-201, pp. 16-17; [Doc #45], Exhibit I Ward Letter, Pg ID 637, p. 1. At that time, Plaintiff was
escorted from the premises. [Doc. #19], Exhibit A at Pg
ID 200, p. 16.
In order for the Plaintiff to return to work, USPS
doctor Nisha Parulekar, MD, advised that he needed to
“provide from your treating psychiatrist, documenta­
tion related to your mental illness status including
diagnosis, medication regiment and plan for follow
up treatment before returning to work.” [Doc. #45],
Exhibit M - Parukelar [sic] Letter, Pg ID 644, p. 1. Fur­
ther, Plaintiff was advised “to provide the proof of com­
pliance with the medication treatment and psycho­
therapy monthly basis from your psychiatrist and
psychotherapist.” Id. On March 18, 2011, Plaintiff
amended his 2010 EEO complaint to add the allegation
that the fitness-for-duty exam and removal from the
premises were in retaliation for filing an EEO com­
plaint. [Doc. #19], Exhibit A at Pg ID 205, p. 2; [Doc.
#45], Exhibit B at Pg ID 622, 625, p. 4, 7.
The EEOC conducted an investigation of plain­
tiff’s complaint and issued a report on June 29, 2011.
[Doc. #19], Exhibit A at Pg ID 186, p. 2. Plaintiff had
thirty days to request a hearing before an Administra­
tive Judge of the Equal Employment Opportunity
Commission (EEOC) or a final agency decision without
a hearing. Id. Although Plaintiff initially requested a

App. 16
hearing, he withdrew his request and requested a final
agency decision instead. Id. On October 31, 2011, the
Agency found that the Plaintiff was not subjected to
discrimination and closed the case. Id. at Pg ID 223,
p. 39. Plaintiff did not appeal. Id. Exhibit C - Denial of
Appeal of 2013 EEO, Pg ID 242, p. 4.
B. Second EEO Complaint (2013)
On or about May 1,2013, Plaintiff submitted a let­
ter to Alesia Hope, Manager of Maintenance Opera­
tions for the Detroit Post Office, requesting to return to
work. Id. Exhibit B - Order Granting SJ of 2013 EEO,
Pg ID 237, p. 14. Ms. Hope forwarded the Plaintiff’s
request to Dr. Elaine R. Ferguson, M.D., the Agency’s
Senior Area Medical Director for the Great Lakes
Area. Id. After reviewing Plaintiff’s request as well
as Dr. Kron’s 2011 psychiatric fitness for duty report
regarding Plaintiff, Dr. Ferguson advised the Detroit
District that Plaintiff did not comply with the require­
ments set forth in 2011 and recommended that he not
be allowed to return to work. Id. Dr. Ferguson further
sent Plaintiff a letter on May 29, 2013, addressing that
Plaintiff needed to provide her the following:
(1) The medical documentation related to his
condition from Dr. Sacks as it remains a
condition of his return to work;
(2) A copy of the counseling/psychiatric treat­
ment records he provided to Dr. Howard
Shapiro, M.D.;

App. 17
(3) Records from 2011 to the present regard­
ing treatment for his psychiatric condi­
tion from Marshall Sack, D.O., and any
other psychiatrist; and
(4) A statement with his current diagno­
sis from Dr. Howard Shapiro, indicating
that Plaintiff is not a risk of harm to him­
self or others, and his current treatmentpsychotherapy and medication.
[Doc. #45], Exhibit O - Ferguson Letter, Pg ID 646-47,
p. 1-2. Because Plaintiff failed to provide the requested
documentation, he was not permitted to return to
work. Id. Exhibit K - Parukelar Letter, Pg ID 644, p. 1;
Id. Exhibit L - Nardone Letter, Pg ID. 643, p 1. Plaintiff
remained on leave without pay status. [Doc. #19], Ex­
hibit B at Pg ID 237, p. 14.
On September 3,2013, Plaintiff filed an EEO com­
plaint based on the denial of his request to return to
work. [Doc. #45], Exhibit C at Pg ID 626, p. 1. In his
complaint, Plaintiff alleged that the USPS discrimi­
nated against him on the bases of his PTSD and prior
EEO activity. [Doc. #19], Exhibit C at Pg ID 241, p. 3.
An investigation was conducted and a report of inves­
tigation was issued. Id.
On June 20, 2014, EEOC Administrative Judge
Deborah M. Barno concluded that there was no com­
parative evidence in the record or evidence showing
that the Agency’s actions may have been motivated by
discrimination, and that the Plaintiff could not estab­
lish a prima facie case of disability discrimination. Id.

App. 18
Exhibit B - Order Granting SJ of 2013 EEO, Pg ID 233,
p. 10. She further concluded that even if Plaintiff could
establish his prima facie case, the Agency had articu­
lated a legitimate, nondiscriminatory reason for not al­
lowing him to return to work because he failed to
present any document with his May 2013 Request to
Return to Work. Id. Administrative Judge Barno also
added that the record showed that the individuals in­
volved in processing and denying the Plaintiff’s May
2013 Request to Return to Work had no knowledge of
his prior EEO activity, and therefore, could not have
acted and made this decision in retaliation for Plain­
tiff’s prior EEO activity. Id. at Pg Id 234-235, pp. 1112. Administrative Judge Barno granted the Agency’s
motion for summary judgment. Id. at Pg ID 235, p. 12.
On July 9, 2014, Plaintiff filed an appeal in the EEOC
Office of Federal Operations (OFO), which affirmed Ad­
ministrative Judge Barno’s decision. Id. Exhibit C at
Pg ID 245, p. 7.
C. Third EEO Complaint (2015)
On August 8, 2014, Plaintiff was sent a letter from
Detroit Maintenance Manager Alesia Hope entitled
“Employee Interview — Separation/Non-Pay Status” ad­
vising him that he was scheduled for a telephone in­
terview on August 14, 2014. Id. Exhibit E — Order
Granting SJ of 2015 EEO, Pg ID 256-257, pp. 7-8. The
letter advised Plaintiff that he had been in a leave
without pay status for over one year and that an em­
ployee, who has been absent because of illness, may be
separated from the Postal Service. [Doc. #45], Exhibit

App. 19
F - Employee Interview Letter, Pg ID 632, p. 1. On Sep­
tember 17, 2014, the Postal Service sent Plaintiff a
letter entitled “Notice of Proposed Separation” setting
out Plaintiff’s options to consider in lieu of being in­
voluntarily separated. Id. Exhibit G - Notification of
Proposed Separation, Pg ID 633, p. 1. In his response,
Plaintiff elected to take a disability separation. [Doc.
#19], Exhibit E at Pg ID 257, p. 8.
On December 19, 2014, Plaintiff was issued a “No­
tice of Separation/Non-Pay Status One Year”, which
advised him that the Postal Service records showed he
had been in a leave without pay status since June 6,
2011, and he would be separated from the Postal Ser­
vice effective January 23, 2015. Id.; [Doc. #45], Exhibit
H - Notice of Separation, Pg ID 635, p. 1.
On February 9, 2015, Plaintiff submitted his third
EEO complaint. [Doc. #45], Exhibit D - 2015 EEO
Complaint, Pg ID 629, p. 1. He alleged that he was
fraudulently “taken off the [rolls]” and claimed he was
the victim-of disability discrimination and retaliation.
Id. An investigation was conducted, and a Report of In­
vestigation was issued. [Doc. #19] Exhibit E at Pg ID
255, p. 6. On November 22,2016, Administrative Judge
Barno granted summary judgment in favor of the
Agency and noted that the reexamination of Plaintiff’s
arguments from his 2010 and 2013 EEO complaints
were barred by res judicata. Id. at Pg ID 261, p. 12.

App. 20
D. Plaintiff’s Federal Court Complaints
On August 3, 2016, Plaintiff filed his first com­
plaint in this case, Case No. 1612860. Complaint [Doc.
#1]. He alleged disability discrimination based on
PTSD. Id. at Pg ID 2, p. 2. On February 28,2017, Plain­
tiff filed a second federal district court case based on
his 2015 EEO complaint. Case No. 17-10631, [Doc; #1].
There, Plaintiff alleged disability discrimination based
on PTSD and retaliation. Id. at Pg ID 4-5, pp. 4-5. On
April 26, 2017, the two cases were consolidated under
this case number, (Case No. 1612860). Order granting
Motion to Consolidate Cases [Doc. #22]. Both parties
have engaged in discovery, exchanged interrogatories
and document requests, and the deposition of Plaintiff
was taken. [Doc. #45] Defendant’s Brief at Pg ID 573,
p. 16.
II.

STANDARD OF REVIEW

Summary judgment is appropriate where “the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a judg­
ment as a matter of law.” Fed. R.Civ.P. 56(c). To prevail
on a motion for summary judgment, the non-moving
party must show sufficient evidence to create a genu­
ine issue of material fact. Klepper v. First American
Bank, 916 F.2d 337, 341-42 (6th Cir. 1990). Drawing
all reasonable inferences in favor of the non-moving
party, the Court must determine “whether the evidence

App. 21
presents a sufficient disagreement to require submis­
sion to a jury or whether it is so one-sided that one
party must prevail as a matter of law.” Anderson u. Lib­
erty Lobby, Inc., All U.S. 242, 251-252, 106 S.Ct. 2505,
91 L.Ed.2d 202 (1986). Entry of summary judgment is
appropriate “against a party who fails to make a show­
ing sufficient to establish the existence of an element
essential to that party’s case, and on which that party
will bear the burden of proof at trial.” Celetox Corp. v.
Catrett, All U.S. 317, 322, 106 S.Ct. 2548, 91 L.Ed.2d
265 (1986).
Once the moving party in a summary judgment
motion identifies portions of the record which demon­
strate the absence of a genuine dispute over material
facts, the opposing party may not then “rely on the
hope that the trier of fact will disbelieve the movant’s
denial of a disputed fact,” but must make an affirma­
tive evidentiary showing to defeat the motion. Street u.
J.C. Bradford & Co., 886 F.2d 1472, 1479 (6th Cir.
1989). The non-moving party must identify specific
facts in affidavits, depositions or other factual material
showing “evidence on which the jury could reasonably
find for the plaintiff.” Anderson, All U.S. at 252 (em­
phasis added). If, after sufficient opportunity for dis­
covery, the non-moving party cannot meet that burden,
summary judgment is proper. Celotex Corp., All U.S. at
322-23.

App. 22
I. [sic]

ANALYSIS

A. The Rehabilitation Act
The Rehabilitation Act, governed by 29 U.S.C.
§ 794, et seq., provides the remedy for a federal em­
ployee alleging disability-based discrimination. Peltier
v. United States, 388 F.3d 984, 989 (6th Cir. 2004). Un­
der the Rehabilitation Act, “[n]o otherwise qualified in­
dividual with a disability . . . shall, solely by reason of
her or his disability, be excluded from the participation
in, be denied the benefits of, or be subject to discrimi­
nation under any program or activity . . . conducted
by . . . the United States Postal Service.” 29 U.S.C.
§ 794(a). The statute further states, in pertinent part,
that “[t]he standards used to determine whether this
section has been violated in a complaint alleging em­
ployment discrimination under this section shall be
the standards applied under . . . the Americans with
Disabilities Act of 1990.” 29 U.S.C. § 794(d). See also
McPherson v. Michigan High School Athletic Ass’n, 119
F.3d 453,459-60 (6th Cir. 1997) (“By statute the Amer­
icans with Disabilities standards apply in Rehabilita­
tion Act cases alleging employment discrimination.”).
1.

The 2010 EEO Complaint

The Rehabilitation Act requires exhaustion of ad­
ministrative remedies before proceeding to federal
court. Smith v. U.S. Postal Service, 742 F.2d 257 (6th
Cir. 1984). Federal regulations set forth an adminis­
trative process that begins with the filing of a com­
plaint with an Equal Employment Opportunity (“EEO”)

App. 23
counselor within 45 days of the alleged discriminatory
act. 29 C.F.R. § 1614.105(a), and concludes with final
agency action on the complaint. 29 C.F.R. § 1614.110.
A plaintiff may appeal the agency’s final decision by
requesting a hearing before the EEOC within 30 days
of the agency’s decision, or may obtain a final agency
decision without a hearing. In the context of the pre­
sent case, any federal action would have to be filed
(1) within 90 days of the notice of the agency’s final de­
cision, or (2) within 90 days of the EEOC’s decision, if
the Plaintiff has appealed to the EEOC. 29 C.F.R.
§§ 1614.407(a) and (c).
In this case, the agency issued a report on June 29,
2011. See Motion to Consolidate Cases [Doc. #19], Ex­
hibit A, Pg. ID 186. Plaintiff initially requested a hear­
ing, but withdrew that request. Id. The agency then
issued its final decision rejecting Plaintiff’s claims of
disability discrimination and retaliation on October
31, 2011. Id. Pg. ID 185, 221. Plaintiff did not adminis­
tratively appeal that final decision. Therefore, under
29 C.F.R. § 1614.407(a), he had 90 days from October
31, 2011, or until January 31, 2012, to file his com­
plaint in this Court. Instead, he filed on August 3,2016,
four and one-half years late. Any claims related to his
2010 EEO complaint must therefore be dismissed.
2.

The 2013 EEO Complaint

Because Plaintiff attempts to support this claim
by presenting circumstantial evidence, he must first
“establish a prima facie case, following the familiar

App. 24
McDonnell Douglas burden-shifting.” Talley v. Family
Dollar Stores of Ohio, Inc., 542 F.3d 1099,1104-05 (6th
Cir. 2008). In McDonnell Douglas Corp. v. Green, 411
U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668 (1973), the Su­
preme Court held that first, the plaintiff has the bur­
den of proving by the preponderance of evidence a
prim a facie case of discrimination. Id. at 802. This can
be satisfied by showing that (1) he is disabled; (2) oth­
erwise qualified for the position; (3) suffered an ad­
verse employment decision; (4) the employer knew or
had reason to know of the plaintiff’s disability; and
(5) the position remained open while the employer
sought other applicants or the disabled individual was
replaced. Monette v. Elec. Data Sys. Corp., 90 F.3d 1173,
1186 (6th Cir. 1996). If the Plaintiff establishes a prima
facie case, the burden shifts to the employer to articu­
late some legitimate, nondiscriminatory reason for the
employee’s rejection. McDonnell Douglas Corp., 411
U.S. at 802. Should the employer carry this burden, the
burden shifts back to the plaintiff to prove that the em­
ployer’s proffered reason was in fact a pretext designed
to mask illegal discrimination. Id. at 804; Jones v. Pot­
ter, 488 F.3d 397, 403 (6th Cir. 2007).
Regarding the 2013 EEO complaint, there is no di­
rect evidence that the USPS relied on Plaintiff’s dis­
ability in making an adverse employment decision or
that the USPS admits reliance on the handicap. Plain­
tiff has failed to provide evidence that he was dis­
charged solely by reason of his disability. In fact, in his
deposition, Plaintiff denied that his manager, Lee

App. 25
Ward, denied his return to work in 2013 because of his
PTSD:
Q.

So let me ask you, you’re claiming in this
lawsuit, isn’t that correct, that Mr. Ward
made the decision not to allow you to re­
turn to work in May 2013 because of your
PTSD, right?

A.

No. Mr. Ward made the decision to keep
me out of work as an involuntary suspen­
sion. He used it as a disciplinary tool.

Q. Yes, but aren’t you claiming that he did
that because of your PTSD?
A.

I - I’m not - well -

Q.

Or maybe you’re not, but let’s j ust get that
clear.

Id. at 105:8-18.
Q.

Do you believe that Mr. Ward thought to
himself this guy has PTSD, therefore I’m
going to punish him by not allowing him
back to work?

A.

No. I believe that he just didn’t want me
back to work period.

Id. at 107:6-10.
Further, Plaintiff also admitted that he did not
have any evidence to support his theory that the USPS
denied his request to return to work based on his
PTSD.

App. 26
Q.

What is your evidence that [Manager Lee
Ward’s] decision was based upon, even in
part, your PTSD, the decision to keep you
out of work in May 2013?

A.

The evidence that I have that he made
the decision based on PTSD. I don’t know
exactly if was - okay. I’m trying to think
of all the evidence that’s there. I mean I
know I got the evidence showing that Mr.
Ward was the decision maker in all three.

Q. That’s not the question [whether] he was
the decision maker.
A.

I understand.

Q.

The question was -

A.

(Interposing) I believe -

Q.

Hold on. Let me just speak, please. The
question is what’s the evidence that he
made the decision because of your PTSD?

A.

I don’t know if I have any evidence. I’d
have to review the case. I don’t have any
particular evidence that suggests or proves
that it was based on the PTSD.

Id. at 108:14 - 109:8. Based on this testimony, Plaintiff
does not provide any evidence that the denial of his
2013 request to return to work was because of his
PTSD. Plaintiff had failed to comply with the initial di­
rective by Dr. Parukelar to provide monthly reports of
compliance with his psychiatric regimen. [Doc. #19],
Exhibit C - Denial of Appeal of 2013 EEO; [Doc. #45],
Exhibit J - Ferguson EEO Affidavit, Pg ID 639-640,

App. 27
p. 2-3; Id. at Exhibit K - Parukelar Letter. Thus, USPS’s
refusal to allow Plaintiff to return to work in 2013 was
not “solely by reason of” his disability.
In this matter, Plaintiff cannot make out his prima
facie case of discrimination. Plaintiff has failed to offer
any evidence that the USPS sought out other employ­
ees to replace him or that any other similarly-situated
employees were treated more favorably than him.
Plaintiff has not submitted any evidence that shows
that another employee failed a fitness-for-duty exam,
failed to comply with the recommendations, and then
was allowed to return back to work. Back in 2013,
Plaintiff was not allowed back to work because he did
not submit the required documentation in compliance
with medical treatment required.
3.

The 2015 EEO Complaint

Likewise, Plaintiff has not provided any evidence
that his removal from the employment rolls in 2015
was because of his PTSD. Plaintiff had been in a leave
without pay status since June 6, 2011 and was sepa­
rated effective January 23, 2015. [Doc. #19], Exhibit E
— Order Granting SJ of 2015 EEO, Pg ID 257, p. 8; [Doc.
#45], Exhibit H - Notice of Separation, Pg ID 635, p. 1.
According to the Postal Service, Plaintiff was sepa­
rated from employment in accordance with its regula­
tions because he was in a leave without pay status for
more than one year. [Doc. #19], Exhibit E at Pg ID 260,
p. 11. Plaintiff has not brought forth any evidence that
another employee was taken off the employment rolls

App. 28
for more than a year and was allowed to return back to
work.
Plaintiff has failed to establish a prima facie case
of discrimination in violation of the Rehabilitation Act.
Thus, his claim of disability discrimination must be
dismissed.
B. Retaliation claim
The Rehabilitation Act prohibits recipients of fed­
eral funds from retaliating against an employee who
has filed a complaint against the employer about dis­
ability discrimination or has requested a “reasonable
accommodation” for his or her disability. A.C. ex rel J.C.
u. Shelby Cnty. Bd. ofEduc., 711 F.3d 687, 698 (6th Cir.
2013). A prima facie case of retaliation requires a
showing of four elements: “(1) the plaintiff engaged
in legally protected activity; (2) the defendant knew
about the plaintiff’s exercise of this right; (3) the de­
fendant then took an employment action adverse to the
plaintiff; and (4) the protected activity and the adverse
employment action are causally connected.” Gribcheck
v. Runyon, 245 F.3d 547, 550 (6th Cir. 2001). “The bur­
den of establishing a prima facie case in a retaliation
action is not onerous, but one easily met.” Nguyen v.
City of Cleveland, 229 F.3d 559, 563 (6th Cir. 2000).
Carrying this burden would create a presumption that
the USPS retaliated against Plaintiff for his protected
conduct. Gribcheck, 245 F.3d at 550. The burden then
shifts to the USPS to show that it had a legitimate,
nondiscriminatory reason for its adverse action in

App. 29
order to rebut this presumption of retaliation. Id. If
USPS carries this burden, the burden shifts back to
Plaintiff to “prove by a preponderance of evidence that
the reasons offered by the employer were a pretext” for
discrimination. Id.
Plaintiff does not assert that the denial of his 2013
request to return to work was credited to retaliation.
As for his 2015 EEO complaint, Plaintiff asserts that
the decision to take him off the employment rolls in
2015 was in retaliation for earlier EEO activity. (Case
No. 17-10631, Doc. #1, Pg ID 5). However, Plaintiff did
not produce any evidence of a causal link between his
earlier EEO activity and being removed from the rolls.
Even if Plaintiff could make out a prima facie case,
USPS articulated their non-discriminatory reason for
taking him off the rolls since he was in non-pay status
for more than a year. [Doc. #19], Exhibit E at Pg ID
260, p. 11. Plaintiff has not provided any evidence that
the reason offered by USPS was a pretext for discrim­
ination. Because Plaintiff failed to carry his burden,
the retaliation claim must therefore be dismissed.
Ill, fsicl

CONCLUSION

For these reasons, I recommend that the Defend­
ant’s motion for summary judgment [Doc. #45] be
GRANTED, and that the complaint be DISMISSED
WITH PREJUDICE.
I further recommend that Plaintiff’s motion for
summary judgment [Doc. #48] be DENIED.

App. 30
Any objections to this Report and Recommenda­
tion must be filed within fourteen (14) days of service
of a copy hereof as provided for in 28 U.S.C. §636(b)(l)
and E.D. Mich. LR 72.1(d)(2). Failure to file specific ob­
jections constitutes a waiver of any further right of ap­
peal. Thomas v. Am, 474 U.S. 140, 106 S.Ct. 466, 88
L.Ed.2d 435 (1985); Howard v. Secretary of HHS, 932
F.2d 505 (6th Cir. 1991); United States v. Walters, 638
F.2d 947 (6th Cir. 1981). Filing of objections which raise
some issues but fail to raise others with specificity will
not preserve all the objections a party might have to
this Report and Recommendation. Willis u. Secretary of
HHS, 931 F.2d 390,401 (6th Cir. 1991); Smith v. Detroit
Fed’n of Teachers Local 231, 829 F.2d 1370, 1373 (6th
Cir. 1987). Pursuant to E.D. Mich. LR 7.1(d)(2), a copy
of any objections is to be served upon this Magistrate
Judge.
Within fourteen (14) days of service of any object­
ing party’s timely filed objections, the opposing party
may file a response. The response shall be not more
than twenty (20) pages in length unless by motion and
order such page limit is extended by the court. The re­
sponse shall address specifically, and in the same order
raised, each issue contained within the objections.
Dated: July 26, 2018

s/R. Steven Whalen
R. STEVEN WHALEN
UNITED STATES
MAGISTRATE JUDGE

[Certificate Of Service Omitted]

1

App. 31
APPENDIX D
No. 18-2186
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL J. SANDS,

)

Plaintiff-Appellant,
v.

MEGAN J. BRENNAN,
POSTMASTER GENERAL,
Defendant-Appellee.

)
)
)

)

ORDER
(Filed Jul. 2, 2019)

)
)
)

BEFORE: MOORE, GILMAN, and DONALD, Cir­
cuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original sub­
mission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt________
Deborah S. Hunt, Clerk

RECEIVED
DEC -6 2019
_SIJPREEM'iFCO|!rRrLn

